Table 1
List of Reports: Audit and Evaluations
   Audit/
 Evaluation                         Title                        Date Issued
  Number
              Assessment of Corporation Finance’s Confidential
    479            Treatment Processes and Procedures             9/29/2010

                Review of the SEC’s Section 13(f) Reporting
    480                        Requirements                       9/27/2010



    483            Audit of the FedTraveler Travel Service        9/22/2010



    484         Real Property Leasing Procurement Process         9/30/2010



    485          Assessment of the SEC’s Privacy Program          9/29/2010

                 Review of PRISM Automated Procurement
    486                 System Support Contracts                  9/30/2010
Table 2
Reports Issued With Costs Questioned or
Funds Put To Better Use
(Including Disallowed Costs)

                                                                  Number of
                                                                   Reports    Value


A. Reports Issued Prior To This Period
 For which no management decision had been made on any
 issue at the commencement of the reporting period                    3       $6,976,143
 For which some decisions had been made on some issues at
 the commencement of the reporting period                             0               $0


B. Reports Issued During This Period                                  3        $231,363


                                    Total of Categories A and B       6       $7,207,506
C. For which final management decisions were made during this
period                                                                2         $30,312
D. For which no management decisions were made during this
period                                                                4       $2,609,575
E. For which management decisions were made on some
issues during this period                                             1       $4,567,619


                                Total of Categories C, D, and E       7       $7,207,506
Table 3
Reports with Recommendations on Which
Corrective Action Has Not Been Completed
   Audit/Inspection/
                            Issue
     Evaluation/ or                            Summary of Recommendation
                             Date
Investigation # and Title

428 - Electronic            7/25/07   Issue program guidance.
Documents Program


                                      Develop written procedures for loading data work
                                      from the regional offices.


439 - Student Loan          3/27/08   In consultation with the Union, develop a detailed
Program                               distribution plan.


446B - SEC’s Oversight      9/25/08   Ensure the BDRA system includes financial
of Bear Stearns and                   information, staff notes and other written
Related Entities:                     documentation and is used to generate
Broker-Dealer Risk                    management reports.
Assessment (BDRA)
Program

                                      Resolve technological problems with the BDRA
                                      system.


450 - Practices Related     3/8/09    Improve analytical capabilities of the Enforcement
to Naked Short Selling                Complaint Center’s e-mail complaint system.
Complaints and
Referrals

                                      Improve the Complaints, Tips and Referrals
                                      database to include additional information about
                                      and better track complaints.

                                      Ensure the Office of Internet Enforcement updates
                                      and resumes using previous complaint referral
                                      tracking system or develops a new system.
   Audit/Inspection/
                            Issue
     Evaluation/ or                            Summary of Recommendation
                             Date
Investigation # and Title

455 - Attorney Annual       9/9/08    Require all SEC attorneys to certify annually that
Certification of Bar                  they are active bar members and to acknowledge
Membership                            that their failure to maintain active bar membership
                                      may result in referral to the appropriate authorities
                                      and/or disciplinary action.

456 - Public                3/27/09   Implement additional management controls over
Transportation Benefit                regional office program operations.
Program

458 - SEC Oversight of      8/27/09   Develop measures for determining whether
Nationally Recognized                 subscriber fees charged by the credit rating
Statistical Rating                    agencies are reasonable.
Organizations
(NRSROs)

                                      Review the OIG findings on conducting
                                      examinations before issuing orders approving
                                      applications and, as appropriate, seek legislative
                                      authority to conduct examinations as part of the
                                      NRSRO application process.

                                      Review the OIG findings concerning Public
                                      Company Accounting Oversight Board (PCAOB)
                                      oversight of NRSRO auditors and, as appropriate,
                                      seek legislative authority to provide the PCAOB
                                      with oversight over audits of NRSROs.

                                      Review the OIG findings on monitoring of
                                      credit ratings and direct the recommendation of
                                      appropriate rules to implement a comprehensive
                                      credit rating monitoring requirement for NRSROs.

                                      Review the OIG findings on credit ratings
                                      disclosures and, as appropriate, direct the
                                      recommendation of additional rule amendments
                                      to enhance the disclosures surrounding the credit
                                      ratings process.
   Audit/Inspection/
                            Issue
     Evaluation/ or                            Summary of Recommendation
                             Date
Investigation # and Title

(Continued)                 8/27/09   Review the OIG findings on the Rule 17g-5
458 - SEC Oversight of                information disclosure program and Regulation
Nationally Recognized                 FD and, as appropriate, direct the assessment of
Statistical Rating                    the potential effects on competition in the credit
Organizations                         rating industry of the re-proposed amendments and
(NRSROs)                              recommend rule changes, if appropriate.


                                      Review the OIG findings on public comment on
                                      a firm’s application and the status of competition
                                      and direct the incorporation of seeking and
                                      consideration of public comments into the SEC’s
                                      NRSRO oversight process.

459 - Regulation D          3/31/09   Evaluate the Electronic Data Gathering And
Exemption Process                     Retrieval (EDGAR) authentication process and
                                      make necessary changes to further streamline or
                                      simplify the process.

                                      Analyze how other agencies have implemented
                                      authentication processes and implement any
                                      appropriate procedures.

460 - Management            3/26/10   Identify the universe of open interagency
and Oversight of                      acquisitions and the corresponding amounts
Interagency Acquisition               obligated and expended on each interagency
Agreements (IAAs) at                  acquisition, and reconcile the universe of open
the SEC                               interagency acquisitions with the financial
                                      information maintained by the Office of Financial
                                      Management (OFM) regarding open interagency
                                      acquisitions and the corresponding amounts
                                      obligated and expended.

                                      Maintain interagency acquisition data in the
                                      appropriate centralized automated system to
                                      ensure appropriate access to and accuracy of data
                                      and to provide for report generation capabilities.

                                      Establish appropriate internal controls to provide
                                      reasonable assurance that, in the future,
                                      interagency acquisition agreement data is accurate,
                                      timely, complete and reliable.
   Audit/Inspection/
                            Issue
     Evaluation/ or                            Summary of Recommendation
                             Date
Investigation # and Title

(Continued)                 3/26/10   Develop internal written policies and procedures
460 - Management                      for administering interagency acquisitions that
and Oversight of                      are based on appropriate risk assessments,
Interagency Acquisition               address both Economy Act and Non-Economy
Agreements (IAAs) at                  Act acquisitions, and incorporate Federal
the SEC                               Acquisition Regulation (FAR) Subpart 17.5, the
                                      Office of Federal Procurement Policy’s (OFPP’s)
                                      guidance on interagency acquisitions, and other
                                      requirements regarding interagency acquisitions,
                                      as appropriate.

                                      In developing written policies and procedures for
                                      assisted interagency acquisitions, incorporate
                                      the requirements of the Economy Act, the OFPP
                                      guidance on interagency acquisitions, and other
                                      controlling authorities, and coordinate with OFM to
                                      assure its minimum requirements are also included.

                                      Benchmark other federal agencies’ written policies
                                      and procedures for interagency acquisitions when
                                      developing its IAA written policies and procedures.

                                      Develop written policies and procedures regarding
                                      interagency acquisitions that include timeframes
                                      and procedures for closing out Economy Act and
                                      non-Economy Act interagency acquisitions and
                                      deobligating funds for both assisted and direct
                                      acquisitions, and ensure the close-out procedures
                                      identify the Commission’s process for coordinating
                                      with servicing agencies.

                                      Promptly identify all IAAs that have expired and
                                      have not been closed, and deobligate any funds
                                      that remain on the expired agreements.

                                      Take action to close the interagency acquisitions
                                      identified for which the performance period expired
                                      and deobligate the $6.9 million in unused funds
                                      that remain on the interagency acquisitions,
                                      in accordance with the appropriate close-out
                                      procedures.
   Audit/Inspection/
                            Issue
     Evaluation/ or                            Summary of Recommendation
                             Date
Investigation # and Title

(Continued)                 3/26/10   Update the interagency acquisition Determinations
460 - Management                      and Findings and interagency acquisition forms
and Oversight of                      to include the information required by the FAR,
Interagency Acquisition               Treasury Financial Manual Bulletin No. 2007-03
Agreements (IAAs) at                  (in consultation with the OFM), and the OFPP
the SEC                               guidance on interagency acquisitions.

                                      Develop and implement appropriate procedures
                                      to review interagency acquisition cost estimates
                                      to ensure they are reasonable and properly
                                      supported.

                                      Assess the Mid-Atlantic Cooperative Administrative
                                      Support Unit (CASU) IAA to determine if the costs
                                      incurred are reasonable and the CASU IAA is in the
                                      best interest of the Commission.

                                      Consider sources of administrative support services
                                      that charge lower amounts if it is determined that
                                      the Mid-Atlantic CASU IAA does not provide the
                                      best value to the Commission.

                                      Provide additional training to contracting staff and
                                      customers regarding interagency acquisitions,
                                      which includes training on developing and ensuring
                                      the adequacy of statements of work and statements
                                      of objectives according to applicable guidance and
                                      requirements.

461 - Review of             3/31/09   Conduct appropriate analysis and complete and
the Commission’s                      submit an Exhibit 300 to the Office of Management
Restacking Project                    and Budget (OMB).

                                      Develop and adopt policies and procedures
                                      for investments in space consistent with OMB
                                      guidance.
   Audit/Inspection/
                            Issue
     Evaluation/ or                             Summary of Recommendation
                             Date
Investigation # and Title

464 - Notification to the   1/23/09   Provide the OIG with three business days notice
OIG of Decisions on                   prior to decisions on disciplinary action.
Disciplinary Actions
and Settlement
Agreements Involving
Subjects of OIG
Investigations

                                      Provide the OIG with five business days notice prior
                                      to executing settlement agreements.


465 - Review of the         9/25/09   Collaborate with office and division managers to
SEC’s Compliance                      review position descriptions of current FOIA/Privacy
with the Freedom of                   Act staff and FOIA liaisons to include appropriate
Information Act (FOIA)                FOIA task descriptions and performance standards,
                                      and review pay grades to ensure they reflect actual
                                      FOIA responsibilities and duties.

466 - Assessment of         3/26/10   Improve the oversight of IT investments to
the SEC Information                   ensure that projects are in compliance with
Technology (IT)                       the requirements in the Capital Planning and
Investment Process                    Investment Control (CPIC) policies and procedures
                                      specifically dealing with the implementation of the
                                      control and evaluate phases of the CPIC process.

                                      Require status updates be provided for all ongoing
                                      projects every six months to manage resources
                                      (i.e., staff, cost and time) for IT investments of
                                      $200,000 and above.

                                      Immediately fill the position of Assistant Director
                                      for the Project Management Office with an
                                      experienced and qualified candidate.

                                      Perform an assessment of the project management
                                      function to compare the current ratio of projects per
                                      project manager to the industry’s acceptable ratio
                                      of projects per project manager.
   Audit/Inspection/
                            Issue
     Evaluation/ or                             Summary of Recommendation
                             Date
Investigation # and Title

(Continued)                 3/26/10   Formally delegate authority to the Chief Information
466 - Assessment of                   Officer (CIO) necessary for the management and
the SEC Information                   oversight of the CPIC process, to include the full
Technology (IT)                       authority to develop and execute all information
Investment Process                    technology policy, as approved by the Chairman.

                                      Revise 17 C.F.R. § 200.13 to provide the CIO with
                                      full authority to develop and issue IT policies and
                                      carry out the prescribed substantive responsibilities
                                      under 44 U.S.C. § 3506 and OMB Guidance
                                      M-09-02, and remove the CIO/Director of the
                                      Office of Information Technology (OIT) from
                                      under the supervision of the Executive Director
                                      or any position other than the Chairman for those
                                      substantive responsibilities.

                                      Revise SEC Regulation (SECR) 24-02 to add
                                      a responsibility that the division directors, office
                                      heads, and regional directors ensure that all IT
                                      investments within their responsibility adhere to
                                      the CPIC policies and procedures, and create
                                      an enforcement mechanism for the CIO and
                                      Information Officers Council to utilize when they
                                      discover investments that have been funded
                                      outside of the CPIC process.

                                      Conduct periodic internal reviews to ensure that
                                      the requirements in Operating Directive 24-02.01,
                                      IT Investment Management, are enforced, (e.g.,
                                      the requirement that two representatives from the
                                      program area be identified for all ongoing projects).

                                      Require that all divisions and offices use OIT’s
                                      project management system and update and
                                      maintain the data in the system for the investments
                                      within their program areas.

471 - Audit of the          9/25/09   Determine the universe of active and open
Office of Acquisitions’               contracts and the corresponding value of the
Procurement and                       contracts and reconcile this information with the
Contract Management                   OFM’s active contract list.
Functions
   Audit/Inspection/
                            Issue
     Evaluation/ or                            Summary of Recommendation
                             Date
Investigation # and Title

(Continued)                 9/25/09   Develop an internal process to ensure procurement
471 - Audit of the                    data is accurately and fully reported in the
Office of Acquisitions’               Federal Procurement Data System for both SEC
Procurement and                       headquarters and regional offices.
Contract Management
Functions

                                      Develop an acquisition training plan to ensure
                                      compliance with OFPP training requirements.


                                      Provide regional offices with oversight, including
                                      the proper use of Contracting Officer’s Technical
                                      Representatives, Inspection and Acceptance
                                      Officials, Point-of-Contact personnel and other
                                      personnel who handle procurement and contracting
                                      activities.

                                      Revise and finalize data migration plan and
                                      include key controls or steps to ensure accuracy of
                                      migrated data.

                                      Reeducate the acquisition workforce on the FAR
                                      requirements that are related to time-and-materials
                                      and labor-hour contracts.

                                      Update SECR 10-14, Procurement Contract
                                      Administration, regarding contract closeout and
                                      ensure that it properly aligns with the FAR.

474 - Assessment of the     3/29/10   Develop a communication plan to address outreach
SEC’s Bounty Program                  to both the public and the SEC personnel regarding
                                      the SEC bounty program, which includes efforts to
                                      make information available on the SEC’s Intranet,
                                      enhance information available on the SEC’s public
                                      website, and provide training to employees who are
                                      most likely to deal with whistleblower cases.
   Audit/Inspection/
                            Issue
     Evaluation/ or                            Summary of Recommendation
                             Date
Investigation # and Title

(Continued)                 3/29/10   Develop and post to the SEC’s public website an
474 - Assessment of the               application form that asks the whistleblower to
SEC’s Bounty Program                  provide information, including, e.g., (1) the facts
                                      pertinent to the alleged securities law violation and
                                      an explanation as to why the subject(s) violated
                                      the securities laws; (2) a list of related supporting
                                      documentation available in the whistleblower’s
                                      possession and available from other sources; (3) a
                                      description of how the whistleblower learned about
                                      or obtained the information that supports the claim,
                                      including the whistleblower’s relationship to the
                                      subject(s); (4) the amount of any monetary rewards
                                      obtained by the subject violator(s) (if known) as a
                                      result of the securities law violation and how the
                                      amount was calculated; and (5) a certification that
                                      the application is true, correct, and complete to the
                                      best of the whistleblower’s knowledge.

                                      Establish policies on when to follow up with
                                      whistleblowers who submit applications to clarify
                                      information in the bounty applications and obtain
                                      readily available supporting documentation prior to
                                      making a decision as to whether a whistleblower’s
                                      complaint should be further investigated.

                                      Develop specific criteria for recommending the
                                      award of bounties, including a provision that
                                      where a whistleblower relies partially upon public
                                      information, such reliance will not preclude the
                                      individual from receiving a bounty.

                                      Examine ways in which the Commission can
                                      increase communications with whistleblowers by
                                      notifying them of the status of their bounty requests
                                      without releasing non-public or confidential
                                      information during the course of an investigation or
                                      examination.
   Audit/Inspection/
                            Issue
     Evaluation/ or                            Summary of Recommendation
                             Date
Investigation # and Title

(Continued)                 3/29/10   Develop a plan to incorporate controls for tracking
474 - Assessment of the               tips and complaints from whistleblowers seeking
SEC’s Bounty Program                  bounties into the development of the Division of
                                      Enforcement’s (Enforcement’s) tips, complaints and
                                      referrals processes and systems for other tips and
                                      complaints, which should provide for the collection
                                      of necessary information and require processes
                                      that will help ensure that bounty applications
                                      are reviewed by experienced Commission staff,
                                      decisions whether to pursue whistleblower
                                      information are timely made, and whistleblowers
                                      who provide significant information leading to a
                                      successful action for violation of the securities laws
                                      are rewarded.

                                      Require that a bounty file (hard copy or electronic)
                                      be created for each bounty application, which
                                      should contain at a minimum the bounty
                                      application, any correspondence with the
                                      whistleblower, documentation of how the
                                      whistleblower’s information was utilized, and
                                      documentation regarding significant decisions
                                      made with regard to the whistleblower’s complaint.

                                      Incorporate best practices from the Department of
                                      Justice (DOJ) and the Internal Revenue Service
                                      (IRS) into the SEC bounty program with respect
                                      to bounty applications, analysis of whistleblower
                                      information, tracking of whistleblower complaints,
                                      recordkeeping practices, and continual assessment
                                      of the whistleblower program.

                                      Set a timeframe to finalize new policies and
                                      procedures for the SEC bounty program that
                                      incorporate the best practices from DOJ and the
                                      IRS, as well as any legislative changes to the
                                      program.

475 - Evaluation of the     3/26/10   Finalize the outstanding draft privacy-related
SEC Privacy Program                   policies and procedures and implement them
                                      throughout the agency by the end of the fiscal year.
   Audit/Inspection/
                            Issue
     Evaluation/ or                             Summary of Recommendation
                             Date
Investigation # and Title

476 - Evaluation of         3/26/10   Revise the encryption policy and require that all
the SEC Encryption                    portable media be encrypted.
Program

                                      Eliminate the option for divisions and offices to
                                      select whether or not they will encrypt portable
                                      media, i.e., thumb drives, CD/DVDs, etc.

PI-09-05 - SEC Access       2/22/10   Ensure, on a Commission-wide basis, that all
Card Readers in                       regional offices are capable of capturing and
Regional Offices                      recording building entry and exit information of
                                      Commission employees.

PI-09-07 - Employee         3/10/10   Review and update internal regulation and policy
Recognition Program                   for the SEC’s Employee Recognition Program
and Grants of Employee                (ERP), and post the revised regulation and/or policy
Awards                                to the SEC’s Intranet site.

                                      Ensure the revised ERP regulation and/or policy
                                      specifically addresses whether informal recognition
                                      awards are authorized and, if so, what criteria,
                                      standards and approvals pertain.

                                      Ensure the revised ERP regulation and/or policy
                                      makes clear that appropriated funds may not be
                                      used to pay for employee parking as an award.

                                      Review various Budget Object Class (BOC)
                                      codes currently used for non-monetary employee
                                      awards, select the most apposite BOC and ensure
                                      all properly authorized non-monetary awards are
                                      charged to that BOC.

                                      Approve requests to use appropriated funds for
                                      non-monetary employee awards only after ensuring
                                      an authorized agency officer has approved the
                                      awards under statutory and regulatory authority.
   Audit/Inspection/
                            Issue
     Evaluation/ or                             Summary of Recommendation
                             Date
Investigation # and Title

ROI-470 - Allegations       2/24/10   Institute procedures to require that a decision
of Conflict of Interest               be made, documented and approved where
and Investigative                     Enforcement has informed the Commission it is
Misconduct                            continuing to consider recommending charges.

ROI-481 - Employees’        3/3/09    Have an employee’s direct supervisor review a list
Securities Transactions               of all pending cases in the group over the last year
                                      to compare against a list of all securities reported
                                      on Office of Government Ethics Form 450 for each
                                      employee.

                                      Conduct separate comprehensive and more
                                      frequent training on Commission Rule 5, its
                                      purpose and its requirements, for all SEC
                                      employees, supervisors and contractors.

ROI-491 - Allegation of     3/29/10   Make efforts to recapture a portion of additional
Fraudulently Obtained                 award fees a contractor obtained based on
Award Fees                            potentially inaccurate data.

                                      Assign all contracts over $1 million to staff at the
                                      level of Assistant Director or higher, as well as the
                                      Office of Acquisitions, which provides oversight for
                                      various SEC acquisitions.

                                      Ensure there is a process to validate any additional
                                      fees awarded under contracts.


ROI-496 - Allegations       1/8/10    Consider promulgating or clarifying procedures for
of Conflict of Interest,              documenting the reasons specific issues referred
Improper Use of Non-                  to Enforcement by the Office of Compliance,
Public Information                    Inspections and Examinations (OCIE) are not
and Failure to Take                   investigated.
Sufficient Action
Against Fraudulent
Company

                                      Consider methods to ensure no appearance of
                                      impropriety when a former SEC attorney represents
                                      a company shortly after SEC work provided
                                      specific, sensitive information related to the
                                      company.
   Audit/Inspection/
                            Issue
     Evaluation/ or                            Summary of Recommendation
                             Date
Investigation # and Title

ROI-502 - Allegations of    9/30/09   Clarify policies on disclosure of non-public
Improper Disclosures                  information, including what constitutes non-public
and Assurances Given                  information related to Enforcement investigations
                                      and parameters for discretionary release.

                                      Clarify Commission’s policies regarding under what
                                      circumstances the staff is obligated to seek formal
                                      approval before making decisions that may bind the
                                      Commission.

ROI-505 - Failure to        2/26/10   Ensure as part of changes to complaint handling
Timely Investigate                    system that databases used to refer complaints
Allegations of Financial              are updated to accurately reflect status of
Fraud                                 investigations and identity of staff.

                                      Ensure as part of changes to complaint handling
                                      system that referrals are monitored to ensure they
                                      are being actively investigated and complainants
                                      are provided accurate information.

                                      Ensure as part of changes to case-closing system
                                      that cases that are not actively being investigated
                                      are closed promptly.

                                      Ensure as part of changes to case-closing
                                      system that Enforcement staff members have
                                      access to accurate information about the status
                                      of investigations and staff requests to close
                                      investigations.

                                      Ensure as part of changes to case-closing system
                                      that staff at all levels be appropriately trained in
                                      case-closing procedures.

ROI-526 - Investigation     3/31/10   Promulgate and/or clarify procedures regarding the
of the SEC’s Response                 consideration of the potential harm to investors if
to Concerns Regarding                 no action is taken as a factor in deciding whether to
Robert Allen Stanford’s               bring an enforcement action.
Alleged Ponzi Scheme
   Audit/Inspection/
                            Issue
     Evaluation/ or                             Summary of Recommendation
                             Date
Investigation # and Title

(Continued)                 3/31/10   Promulgate and/or clarify procedures regarding
ROI-526 - Investigation               the significance of bringing cases that are difficult,
of the SEC’s Response                 but important to the protection of investors, in
to Concerns Regarding                 evaluating staff or regional office performance.
Robert Allen Stanford’s
Alleged Ponzi Scheme

                                      Promulgate and/or clarify procedures regarding
                                      the significance of the presence or absence of
                                      U.S. investors in determining whether to open an
                                      investigation or bring an enforcement action.

                                      Promulgate and/or clarify procedures regarding
                                      coordination between Enforcement and OCIE on
                                      investigations, particularly those investigations
                                      initiated by a referral to Enforcement by OCIE.

                                      Promulgate and/or clarify procedures regarding the
                                      factors for determining when referral of a matter
                                      to state securities regulators, in lieu of an SEC
                                      investigation, is appropriate.

                                      Promulgate and/or clarify procedures regarding
                                      training of Enforcement staff to strengthen their
                                      understanding of the laws governing broker-dealers
                                      and investment advisers.

                                      Promulgate and/or clarify procedures regarding
                                      emphasizing the need to coordinate with the Office
                                      of International Affairs and the Division of Risk,
                                      Strategy, and Financial Innovation, as appropriate,
                                      early in investigations.
Table 4
Summary of Investigative Activity
CASES                                                NUMBER
Cases Open as of 3/31/2010                              13
Cases Opened during 4/01/2010 - 9/30/2010               13
Cases Closed during 4/01/2010 - 9/30/2010               10
Total Open Cases as of 9/30/2010                        16
Referrals to Department of Justice for Prosecution       3
Prosecutions                                             0
Convictions                                              0
Referrals to Agency for Disciplinary Action              3

PRELIMINARY INQUIRIES                                NUMBER
Inquiries Open as of 3/31/2010                          71
Inquiries Opened during 4/01/2010 - 9/30/2010           42
Inquiries Closed during 4/01/2010 - 9/30/2010           23
Total Open Inquiries as of 9/30/2010                    90
Referrals to Agency for Disciplinary Action              6

DISCIPLINARY ACTIONS                                 NUMBER
Removals (Including Resignations and Retirements)       6
Demotions                                               1
Suspensions                                             2
Reprimands                                              1
Warnings/Other Actions                                  2
Table 5
Summary of Complaint Activity
                         DESCRIPTION                            NUMBER
Complaints Pending Disposition at the Beginning of Period          7
   Hotline Complaints Received                                    132
   Other Complaints Received                                      232
Total Complaints Received                                         364
Complaints on which a Decision was Made                           360
Complaints Awaiting Disposition at End of Period                   11

Dispositions of Complaints During the Period                    NUMBER
   Complaints Resulting in Investigations                          11
   Complaints Resulting in Inquiries                               42
   Complaints Referred to OIG Office of Audits                     9
   Complaints Referred to Other Agency Components                 134
   Complaints Referred to Other Agencies                           8
   Complaints Included in Ongoing Investigations or Inquiries      21
   Response Sent/Additional Information Requested                  47
   No Action Needed                                                96
Table 6
References to Reporting Requirements
of the Inspector General Act
The Inspector General Act of 1978, as amended, specifies reporting requirements for
semiannual reports to Congress. The requirements are listed below and indexed to the
applicable pages.
Section             Inspector General Act Reporting Requirement                     Pages
Section
        Review of Legislation and Regulations                                       81-83
4(a)(2)
                                                                                    13-18,
Section
        Significant Problems, Abuses, and Deficiencies                              24-44,
5(a)(1)
                                                                                    48-76
Section                                                                             24-44,
           Recommendations for Corrective Action
 5(a)(2)                                                                            48-76
Section
           Prior Recommendations for Corrective Action                              91-99
 5(a)(3)
Section                                                                             48-76,
           Matters Referred to Prosecutive Authorities
 5(a)(4)                                                                             101
Section    Summary of Instances Where Information was Unreasonably Refused or
                                                                                       85
 5(a)(5)   Not Provided
Section
           List of OIG Audit and Evaluation Reports Issued During the Period           87
 5(a)(6)
Section                                                                             24-44,
           Summary of Significant Reports Issued During the Period
 5(a)(7)                                                                            48-76
Section    Statistical Table on Management Decisions with Respect to Questioned
                                                                                       89
 5(a)(8)   Costs
Section    Statistical Table on Management Decisions on Recommendations That
                                                                                       89
 5(a)(9)   Funds Be Put to Better Use
Section    Summary of Each Audit, Inspection or Evaluation Report Over Six Months
                                                                                       85
5(a)(10)   Old for which No Management Decision has been Made
Section
           Significant Revised Management Decisions                                    85
5(a)(11)
Section    Significant Management Decisions with which the Inspector General
                                                                                       85
5(a)(12)   Disagreed
Section
           Appendix of Peer Reviews Conducted by Another OIG                           107
5(a)(14)
Section    List of Outstanding Peer Review Recommendations Not Fully
                                                                                       107
5(a)(15)   Implemented
Section
           List of Peer Reviews Conducted of Another OIG                               107
5(a)(16)
